DOE F 1325.8
(08-93)
United States Government                                                         ._Department of Energy



memorandum
        DATE:    January 21, 2004                                      Audit Report No. OAS-L-04-09
   REPLY TO
    ATTN OF:     IG-30 (A03DN002)
   SUBJECT:      Department of Energy's Implementation of the Competitive Sourcing Initiative

          TO:    Bruce M. Cames, Associate Deputy Secretary of Energy

                 INTRODUCTION AND OBJECTIVE

                In 2002, the President established the Competitive Sourcing Initiative to improve the
                procedures for comparing public and private sources for the performance of
                government operations, to better publicize the activities subject to competition, and to
                ensure senior level agency attention to the promotion of competition. The intended
                result was increased efficiency and effectiveness through increased competition
                between public and private sources.

                 The Federal Activities Inventory Reform (FAIR) Act of 1998 requires each agency to
                 assess the competition potential of activities performed by Federal Government
                 sources and report to the Office of Management and Budget those activities which are.
                not inherently governmental. The agency is required to further distinguish which
                activities would or would not be suitable for competition. In developing its plan for
                competitive sourcing, the Department of Energy (Department) identified six
                functional areas which it determined were most amenable to competitive sourcing.
                These functional areas --.including Civil Rights, Graphics, Human Resources,
                Financial Services, Information Technology, and Logistics -- were selected for
                competitive sourcing study. The objective of this audit was to determine if the
                Department is considering all activities that it identified as suitable for competition in
                its competitive sourcing studies.

                CONCLUSIONS AND OBSERVATIONS

                Based on the 2003 FAIR Act inventory listing, the Department identified
                approximately 3,300 Full-Time Equivalents (FTEs) that could be subjected to
                competitive sourcing studies. Initially, the President's Management Agenda charged
                each agency with competing specified percentages of commercial activities that were
           -    being performed by Federal employees. However, those goals have since been "
                eliminated and replaced with a requirement for each agency to develop a competitive
                sourcing plan adapted to its needs.
While 976 of the 3,300 FTEs identified as amenable to competition were positions at
the Power Marketing Administrations (PMAs), the Department later decided that
studying the PMA positions would not provide substantial benefit to the Department
and exempted them from further study at that time. In correspondence with the Office
of Management and Budget, the Department outlined its rationale for not studying
them further. Specifically, the correspondence indicated that the PMAs are financed
through the rates charged to customers and are already subject to market pressures to
reduce costs.

The Department has, in our judgment, clearly documented its rationale for excluding
the PMAs. Nonetheless, we noted that the PMAs, with the exception of the
Bonneville Power Administration, received approximately $200 million in
appropriated funds for Fiscal Year 2004. Consistent with the President's objectives,
recent studies have confirmed that subjecting in-house operations to competition
generally results in cost savings, even if the retention of the service in-house is the
result. As competitive sourcing activities continue, senior Department managers may
want to consider including the PMAs in associated studies.

We discussed the audit results with the Director of the Office of Competitive
Sourcing. Since no formal recommendations are being made in this letter report, a
formal response is not required. We appreciat t e cooperation of your staff.




                                      Fre nck      Doggett
                                      Assistant spector General for
                                       Audit Services
                                      Office of Inspector General

Attachment

cc: Director, Office of Competitive Sourcing
    Team Leader, Audit Liaison Team, ME-1.1
                                                                          Attachment

                           SCOPE AND METHODOLOGY

The audit was performed at Washington, D.C. between September 22 and November
20, 2003. The audit covered the Department's implementation of the Competitive
Sourcing Initiative from March 2002 to November 2003.

To accomplish the audit objective, we reviewed the Department's plans for
implementing the Competitive Sourcing Initiative; reviewed the rationale provided by
the Department for the exclusion of the PMAs; and interviewed program officials.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls and performance measures
established under the Government Performanceand Results Act of 1993 related to
competitive sourcing. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our
audit. We generally did not rely on computer-processed data to accomplish our audit
objective.
DOE F 1325.8
(08-93)
United States Government                                                               Department of Energy


memorandum
       DATE:     January 28, 2004

  REPLY TO
   ATTN OF:      IG-30 (A02DN006)

    SUBJECT:     Final Report Package for Letter Report on "DOE's Implementation of the Competitive
                 Sourcing Initiative"

           TO:   Director, Planning and Administration

                 Attached is the required final report package on the subject audit. The pertinent details are:

                  1. Staffdays:          Programmed         115       Actual 98

                 2. Elapsed days:        Programmed         255       Actual 122

                 3. Names of OIG audit staff:

                   Assistant Division Director: Fred Pieper
                   Team Leader: Mark Mickelsen
                   Auditor-in-Charge: Susy Serrano
                   Audit Staff: Christine Nehls

                 4. Coordination with Investigations and Inspections: Inspections and Investigations
                    were notified on January 14, 2003 of planned issuance of letter report. No actual or
                    potential compromise of an investigation or inspection was noted. This report will
                    not impact any ongoing investigationsr inspections.

                 5. Matters to be brought to attentio 7         h IG or DIGAS: None.



                                                 Fr       ric     .   oggett
                                                 Assistant Inspector General for
                                                   Audit Services
                                                 Office of Inspector General

                 Attachments:
                 1. Final Report (3)
                 2. Monetary Impact Report
                 3. Audit Project Summary Report
                 4. Transmittal Memorandum
                       MONETARY IMPACT OF REPORT NO.:                               O    -'-s-ty


1. Title of Audit:       DOE's Implementation of the Competitive Sourcing Initiative

2. Division:             Environmental Audits Division

3. Project No.:          A03DN002

4. Type of Audit:

      Financial:                                             Performance:        X
         Financial Statement                                   Economy and Efficiency                    X
         Financial Related                                     Program Results
      Other (specify type):

5.

                                                                                                        MGT.     POTENTIAL
        FINDING                     COST                        QUESTIONED COSTS                      POSITION    BUDGET
                                  AVOIDANCE                                                                       IMPACT
(A)            (B)              (C)       (D)         (E)         (F)        (G)            (H)          (I)        (J)
               Title           One     Recurring   Questioned    Unsup-    Unre-           Total      C=Concur     Y=Yes
                               Time     Amount                   ported    solved       (E)+(F)+(G)   N=Noncon     N=No
                                        PerYear                                                       U=Undec
                              $0       $0          $0           $0             $0       $0              N/A         N




TOTALS--ALL FINDINGS          $0       $0          $0                     $0            $0




6. Remarks: We found that the Department's plans for competitive sourcing studies do not
   include all activities it identified as suitable for competition. The Department decided that
   studying 976 PMA positions identified as suitable for competition would not provide
   substantial benefit to the Department, and exempted the PMA positions from being studied.
   However, recent studies show that subjecting in-house operations to competition generally
   results in cost savings, regardless of whether the winner is a private contractor or the
   government. For example, two competitions already completed within the Department-
   involving only 21 FTEs-are estimated to result in a combined $5 million savings over a 5-
   year period. Therefore, as competitive sourcing activities continue, senior Department
   managers may want to consider including the PMAs in associated studies.

7. Contractor:         None                             10. Approvals:
8. Contract No.:        None                            Division Director/Date:
9. Task Order No.:        None                          Technical Advisor & Date




                                                            1
                                                     Office of the Inspector General              (OIG)
                                               Audit Project Office Summary                         (APS)
                                                                                                                              Page 1
Report run on:                          January 15, 2004 5:12 PM


  Audit#: A03DN002                      Ofc:   DNA     Title: DOE IMPLEMENTATION GOVT OUTSOURCING INITIATIV



                                                      Planned        End of Survey            Revised           Actual


   Entrance Conference:.....                         05-MAY-03                              22-SEP-03         22-SEP-03

   Survey:..................                                                                06-NOV-03         06-NOV-03
   Draft Report:...........
   Completed (With Report):.                         15-JAN-04         06-NOV-03            23-JAN-04                     (   )
   ------------            Elapsed Days:                 255                  45                   123             116
                                                                                                   Elap.    Less Susp:
   Date Suspended:                                                  Date Terminated:
   Date Reactivated:                                                 Date Cancelled:
   DaysSuspended(Cur/Tot):                                         ) Report Number:
   Rpt Title:                                                       Report Type:                  Not Found




  Class:    PER                 PERFORMANCE
  Program: MA                   Not Found
  MgtChall: 103                 PERFORMANCE MANAGEME
                                                                                    AD: 496        PIEPER
   Site:             MSA        MULTI-SITE AUDIT
                                                                                   AIC:     729    SERRANO
   SecMiss:          CMT        CORPORATE MANAGEMENT
                                                                           Team Ldr:        342    MICKELSEN
   PresInit: CPS                COMPETITIVE SOURCING                       Tech Adv:        421    SCHULMAN



          Task No:
          Task Order Dt:                                           CO Tech. Rep:
          Orig Auth Hrs:                                           Orig Auth Costs:
          Current Auth:                                            Current Auth Cost:
          Tot Actl IPR Hr:                                         Tot Actl Cost:


                                                           ****     Time& Charges    ****



                          MICKELSEN, M                      11.1          10-JAN-04
                          NEHLS, C                         26.6           29-NOV-03
                           SERRANO, S                       56.4          10-JAN-04
                               Total:                       94.1




                          A-76
                                    Office of the Inspector General (OIG)
                                 Audit Project Office Summary            (APS)
                                                                                     Page 2
Report run on:              January 15, 2004 5:12 PM




                 COMPETITIVE SOURCING
                 SOURCING


                               oc*.Ljati.0..Informa~tion
                                                       .****


    HAH    HEADQUARTERS, ADMINISTRAT


                                 ****.i..di..I.foration
                             ......                        **t*.*   Bu           -


                            .. .:.:................:
                                        ..........
                                             ...
                        Office of the Inspector General (OIG)
                      Audit Project    Office   Summary (APS)

                                                                Page 3
Report run on:   January 15, 2004 5:12 PM
                                    FACT SHEET
                         AUDIT REPORTS SUBMITTED TO AIGAS


1.   Type of Report                               2.      Report No.
      Blue Cover                                  3.      IGDBMS No. A03DN002
      Buff Cover                                  4.      Date Issued
      Letter                X                     5.      Audit Category Performance
      Other (Specify)

6.   .Project Cross-Indexing:

     a. Competitive Sourcing
     b. Office of Competitive Sourcing
     c..President's Management Agenda
     d. Competitive sourcing studies
     e. A-76

7.   Narrative of Report:

     We found that the Department's plans for competitive sourcing studies do not include all
     activities identified as suitable for competition. While 976 of the 3,300 Full-Time
     Equivalents (FTEs) identified by the Department as suitable for competition were positions at
     the Power Marketing Administrations (PMAs), the Department decided that studying the
     PMA positions would not provide substantial benefit to the Department and exempted them
     from being studied. In correspondence with the Office of Management and Budget,
     Department officials outlined their rationale that the PMAs are financed through rates
     charged to customers and are already subject to market pressures to reduce costs; therefore, it
     would not accrue additional cost savings or improved quality by including the PMAs in the
     studies. We noted that the PMAs, with the exception of Bonneville, receive approximately
     $200 million in appropriated funds each year. Further, recent studies have confirmed that
     subjecting in-house operations to competition generally results in cost savings regardless of
     who wins the competition. Therefore, as competitive sourcing activities continue, senior
     Department managers may want to consider including the PMAs in associated studies.


8.   Submitted by: Mark Mickelsen                                Date:   1/15/04

9.   Reviewed by:                                                Date:
                     AUDIT DATABASE INFORMATION SHEET


1. Project No.: A03DN002

2. Title of Audit: Audit of DOE's Implementation of the Competitive Sourcing Initiative

3. Report No./Date     DAS-L- CG9-       1/2-/6

4. Management Challenge Area: Performance Management

5. Presidential Mgmt Initiative: Competitive Sourcing

6. Secretary Priority/Initiative: None

7. Program Code: MA

8. Location/Sites: DOE Headquarters

9. Finding Summary:

   We found that the Department's plans for competitive sourcing studies do not include all
   activities identified as suitable for competition. While 976 of the 3,300 Full-Time
   Equivalents (FTEs) identified by the Department as suitable for competition were
   positions at the Power Marketing Administrations (PMAs), the Department decided that
   studying the PMA positions would not provide substantial benefit to the Department and
   exempted them from being studied. In correspondence with the Office of Management
   and Budget, Department officials outlined their rationale that the PMAs are financed
   through rates charged to customers and are already subject to market pressures to reduce
   costs; therefore, it would not accrue additional cost savings or improved quality by
   including the PMAs in the studies. We noted that the PMAs, with the exception of
   Bonneville, receive approximately $200 million in appropriated funds each year. Further,
   recent studies have confirmed that subjecting in-house operations to competition
   generally results in cost savings regardless of who wins the competition. Therefore, as
   competitive sourcing activities continue, senior Department managers may want to
   consider including the PMAs in associated studies.

10. Keywords:
                A-76
                Competitive Sourcing
                PMAs
                President's Management Agenda
                   POTENTIALLY SENSITIVE INFORMATION

The following is a list of information considered to be potentially sensitive. If the
information is detailed to such an extent that it would cause or could potentially
cause damage to U.S. national security, citizens, or property, it cannot be included
in our public reports. Therefore, when preparing your reports be sure to use this
checklist to determine whether the report contains potentially sensitive information.

             CATEGORIES/TYPES OF INFORMATION                                YES   NO
Facilities
> Detailed description and location of facilities to include maps,                 X
   written directions, drawings, blue prints, photographs and the like
> Detailed descriptions and location of storage facilities for nuclear or          X
  other hazardous materials
> Detailed descriptions and location of personnel or facility support              X
  systems (e.g. water supply, electrical supply systems,
  communications systems, emergency response
  personnel/equipment)
> Detailed descriptions and locations of computer systems used to                  X
  process, store, and transmit sensitive information.
> Environmental Impact Statements that provide the consequences for                X
  what is being studied.
> Any detailed information pertaining to other sites that has not been             X
  reviewed/approved by the other site.

Materials
> Form and quantity of hazardous materials, (chemical, nuclear,                    X
  biological)
> Vulnerabilities of materials to unauthorized access or destruction.              X
> Consequences of release of hazardous materials*                                  X
> Detailed transportation related information (routes, maps, shipping              X
  means, containers).

Security/Safety
> Detailed plans, procedures, communications, reaction times,                      X
   capabilities that would allow someone to determine vulnerabilities
   of the site.
> Specific assessments, exercise results, evaluations for a particular             X
   site
> Specific personnel data identifying security/safety personnel                    X
> Specific equipment and its potential uses                                        X




                                            1
                   POTENTIALLY SENSITIVE INFORMATION


Assessments
> Site specific vulnerability assessments                                 X
> Site specific safety assessments/analysis                               X
> Site specific risk analyses                                             X
> Specific hazardous assessments (Dispersion models and analyses,         X
   accident analyses, or site hazards)

Personnel
> Specific organization charts or phone lists identifying senior          X
   management/key personnel
> Specific personal data to include travel plans, meetings and the like   X
> Specific training materials that include sensitive information          X

Programs
> Detailed information identifying sensitive programs, special            X
  projects, SAPs, WFO
> Reports detailing specific activities and/or results from programs      X
   and projects
> Information pertaining to specific programs at other facilities/sites   X
  that has not been cleared with the other sites for publication on a
  publicly accessible web site




                                            2
If your audit work or report deals with any of the following information, be sure to have
your information reviewed by a classifier to ensure you are not inadvertently discussing
Restricted Data or Formerly Restricted Data or any other level of classification.
Information in the aggregate can be classified even if taken from unclassified sources.

  AIDS FOR REVIEW OF INFORMATION THAT MAY BE                               YES       NO
                CLASSIFIED OR CONTROLLED
Source or formula for Chemical/Biological Agents that has not been                    X
widely reported in open scientific literature.

Existence of a specific Chemical/Biological agent that is considered a                X
threat to national security at a specified location within a government
facility.

Statements that a specific Chemical/Biological agent considered a                     X
threat to national security cannot be detected by existing technology.

Information concerning significant technical advances and break-                      X
throughs in Chemical/Biological agent detection, dissemination, or
response technologies that could significantly assist an adversary.

Results or interpretation of research results from computer modeling                  X
that reveal specific operational deficiencies or vulnerabilities of a
facility, infrastructure, or response plan which could be exploited or
otherwise could materially aid an adversary in planning or conducting
a Chemical/Biological attack.

Source term parameters (e.g. location, quantity, release rate, dispersal              X
mechanisms, physical state, or particulate size distribution) of a
Chemical/Biological agent and the airborne or surface concentrations
resulting from dispersion modeling.

Specific dispersion mechanisms for specific chemical/Biological                      X
agents, including grinding techniques and pressurized systems that
would be effective for dispersion over a large area.

Details of operational scenarios either for intelligence, civilian, or               X
military organizations that would reveal current vulnerabilities or
lessen the effectiveness of the scenarios.

Information about deployment of a specific detector or response                      X
system that could be used to defeat or significantly reduce the
effectiveness of that system or otherwise materially aid an adversary
in planning or conducting an attack.




                                               1
Descriptions of specific vulnerabilities of decontamination equipment   X
or procedures that could be exploited to prevent or significantly
reduce their ability to perform required functions or otherwise
materially aid an adversary in planning or conducting a
Chemical/Biological attack.

Descriptions of specific conditions (e.g., carrier for an agent or      X
environmental condition) that could be exploited to reduced the
effectiveness of standard decontaminants or decontamination
procedures such that risks to unprotected personnel cannot be reduced
to acceptable levels, or otherwise would aid an adversary in planning
a Chemical/Biological attack.

Nuclear weapon design, fabrication, and utilization.                    X

Radiological warfare.                                                   X

Radiological dispersal devices.                                         X

Inertial confinement fusion.                                            X

Military nuclear reactors (not necessary for civilian).                 X




                                             2
